<html>
<title> - THE STATE DEPARTMENT AND USAID FY 2020 OPERATIONS BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


        THE STATE DEPARTMENT AND USAID FY 2020 OPERATIONS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 11, 2019
                               __________

                           Serial No. 116-50
                               __________

        Printed for the use of the Committee on Foreign Affairs
        

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                     or http://http://www.govinfo.gov
                     
                     
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-769PDF                  WASHINGTON : 2019    




                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             	MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York                  Member
ALBIO SIRES, New Jersey			CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia		STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida		JOE WILSON, South Carolina
KAREN BASS, California			SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts		TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island		ADAM KINZINGER, Illinois
AMI BERA, California			LEE ZELDIN, New York
JOAQUIN CASTRO, Texas			JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada			AMY WAGNER, Missouri
ADRIANO ESPAILLAT, New York		BRIAN MAST, Florida
TED LIEU, California			FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania		BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota		JOHN CURTIS, Utah
ILHAN OMAR, Minnesota			KEN BUCK, Colorado
COLIN ALLRED, Texas			RON WRIGHT, Texas
ANDY LEVIN, Michigan			GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia		TED BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania		GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey		STEVE WATKINS, Kansas
DAVID TRONE, Maryland			MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                                           
                    Jason Steinbaum,  Staff Director

               Brandon Shields, Republican Staff Director
               
                                 ------                                

              Subcommittee on Oversight and Investigations

                     AMI BERA, California, Chairman

ILHAN OMAR, Minnesota                	LEE ZELDIN, New York, Ranking 
ADRIANO ESPAILLAT, New York                Member
TED LIEU, California			SCOTT PERRY, Pennsylvania
TOM MALINOWSKI, New Jersey		KEN BUCK, Colorado
DAVID CICILLINE, Rhode Island		GUY RESCHENTHALER, Pennsylvania
                                                                                                              
                    Nikole Burroughs, Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS SUBMITTED FROM COMMITTEE MEMBERS

Opening statment submitted for the record from Chairman Bera.....     4

                               WITNESSES

Perez, Honorable Carol Z., Director General of the Foreign 
  Service and Director of Human Resources, Bureau of Human 
  Resources, U.S. Department of State............................    12
Pitkin, Douglas, Director, Bureau of Budget and Planning, U.S. 
  Department of State............................................    16
Nutt, Frederick, Assistant Administrator, Bureau for Management, 
  United States Agency for International Development.............    20
Leavitt, Bob, Chief Human Capital Officer, United States Agency 
  for International Development..................................    24

                                APPENDIX

Hearing Notice...................................................    54
Hearing Minutes..................................................    55
Hearing Attendance...............................................    56

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record to Ms. Perez from 
  Representative Bera............................................    57
Responses to questions submitted for the record to Mr. Pitkin 
  from Representative Bera.......................................    81
Responses to questions submitted for the record to Mr. Nutt from 
  Representative Bera............................................   107
Responses to questions submitted for the record to Mr. Leavitt 
  from Representative Bera.......................................   119
Responses to questions submitted for the record to Mr. Pitkin 
  from Representative Omar.......................................   132
Responses to questions submitted for the record to Mr. Nutt from 
  Representative Omar............................................   138

 
        THE STATE DEPARTMENT AND USAID FY 2020 OPERATIONS BUDGET

                        Thursday, July 11, 2019

                       House of Representatives,

             Subcommittee on Oversight and Investigations,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 3:19 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ami Bera 
(chairman of the subcommittee) presiding.
    Mr. Bera. The subcommittee will come to order. We meet 
today to discuss the State Department and USAID Fiscal Year 
2020 operations budget.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record 
subject to the length limitations in the rules.
    I will now make my opening statement and then turn it over 
to the ranking member for his opening statement. I have noticed 
that the Republicans are a little bit faster getting over here 
after votes.
    Yes, I want to thank the ranking member, Mr. Zeldin, 
members of the subcommittee, and our witnesses for joining us 
for today's hearing on the Administration's proposal for the 
Fiscal Year 2020 operations budget. I also want to thank the 
witnesses for being accommodating knowing that our vote 
schedules interfered with our original hearing schedule, and 
thank you for accommodating us today.
    The topics covered in this hearing--I have said this 
previously--are not necessarily what is going to make cable 
news every night, but they are of incredible importance when we 
think about how best we can serve the United States of America, 
our interests around the world, and our foreign policy.
    The foundation of any real successful organization always 
starts with the right people and making sure they are equipped 
with the right resources and ability to do their jobs 
effectively. And as I have said multiple times previously and 
want to reiterate, we are proud of the men and women around the 
world that serve us in our diplomatic corps, at our embassies, 
in our development work around the world, and these are 
patriotic Americans. I once again want to just reiterate the 
work that they do and how important it is to American foreign 
policy and American strength.
    The last few months, as the subcommittee chairman, I have 
had the pleasure of meeting with many individuals, both in the 
current administration but also in prior administrations, both 
Republicans and Democrats who care about the work of the State 
Department and USAID deeply.
    Ambassador Perez, I want to thank you for also taking the 
time to meet with us but also Ambassador Green and others from 
USAID.
    We really do agree that, when we are thinking about our 
operational effectiveness, we want to make sure we are 
appropriately resourcing both State and USAID and giving them 
the tools. When we think about that, an administration's budget 
is a reflection of those priorities.
    I do have some concerns about the Fiscal Year 2020 budget 
request, which includes the 8-percent cut in diplomatic 
programs account and an 18-percent cut to the embassy security 
account. That said, as we, think about the world that we are 
in, our foreign policy, our development work really did serve 
us very well in the post-World War II and Cold War World.
    But we also know that we are in a new world in the 21st 
century. As we think about budget priorities, as we think about 
personnel, as we think about programming, efficiencies, and 
expertise, we really do have to, make sure we are giving those 
men and women the tools and skills to succeed in the 21st 
century.
    We know those challenges are vast, from large demographic 
shifts to fragile States in sub-Saharan Africa to the threat of 
pandemics. This is an increasingly complex landscape. Whereas, 
during the cold war, we could focus on traditional countries 
and global powers, we know now we have other emerging threats 
and non-State actors that we have to be conscious of and nimble 
in addressing.
    We also know in the era of cybersecurity, et cetera, we 
have to equip the workers at State Department and USAID with 
the right IT systems to ensure that they have got appropriate 
data flows and protection of that information.
    As we do some of the questioning--and I know, Ambassador 
Perez, we have talked about this--is I have had concerns about 
the persistent vacancies for career State employees that have 
been identified in multiple GAO reports, not just in this 
Administration but in prior administrations as well.
    And we know that those persistent vacancies certainly put 
challenge and stress on the existing work force that leads to 
lower morale and less efficient productivity. And I have talked 
to Secretary Pompeo about that as well. So in my questioning 
that is something that is certainly we will want to talk about.
    And then we have also talked about how we have to recruit 
and retain the best and the brightest. I know the Secretary, 
when he was in front of the full committee, talked about his 
efforts to go out there and make a career in diplomacy or 
development, a sought-after field, to sell that to campuses, et 
cetera. And I think that is, certainly incredibly important.
    I know he has come out with a new ethos at the State 
Department.
    Ambassador Perez, I think you are in charge of executing on 
that ethos, so we can certainly talk about that a little bit as 
well.
    But I also want to make sure this is a partnership. 
Congress in its oversight capacity is a partner with the 
Administration, making sure that, as we are authorizing and 
appropriating funds, that we are giving the full attention to 
the personnel, the full resources to those folks, and those 
resources are getting out to those individuals in the most 
efficient manner.
    So certainly that is something that we have talked about, 
and Mr. Zeldin and I have talked about as well, how we can make 
sure the folks that we are sending out there to do the mission 
of the United States of America are equipped to be successful.
    With that, I always look forward to working with the 
Ranking Member Zeldin and our Democratic and Republican 
subcommittee members and the witnesses to ensure the American 
people are served by a U.S. diplomatic and development corps 
that delivers the best outcomes and ensures continued American 
leadership for decades to come.
    I now recognize Ranking Member Zeldin for 5 minutes to 
deliver his opening statement.
    [The prepared statement of Mr. Bera follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Zeldin. Thank you, Mr. Chairman.
    And thank you to all of our witnesses for being here, 
especially our men and women who work at the State Department 
and USAID. The ranks are filled with great Americans who take 
their job very seriously. They carry out their roles very 
professionally, and they make America proud.
    Today's hearing is an important opportunity for this 
committee to examine the Fiscal Year 2020 budget for the State 
and USAID. It is important for these agencies to have the 
support that they need from Congress as well as the oversight 
appropriated to fulfill our constitutional Article I 
responsibilities.
    In bipartisan fashion, this committee should always work to 
ensure transparency and accountability at these important U.S. 
agencies regardless of whoever is the President at any given 
time, the Secretary, or Administrator, and regardless of 
political affiliation.
    At the end of the day, what is most important is that the 
State Department and USAID are as effectively and efficiently 
as possible fulfilling their critical missions at home and 
around the globe. An integral part of forwarding the State 
Department and USAID's important mission is ensuring they have 
the financial resources and qualified human resources they 
need.
    The State Department has had tremendous foreign policy 
accomplishments in pursuit of a stronger and more effective 
foreign policy without apology for American exceptionalism, 
standing shoulder to shoulder with allies like Israel and 
pushing back on Iranian aggression and more.
    We are encouraged by the State Department's efforts to 
efficiently review and then eliminate or fill many special 
envoy positions. I am also encouraged to see a great incoming 
class of Foreign Service officers to fill existing vacancies 
that are critical to fill.
    While I want to commend the Department wherever and 
whenever it exceptionally fulfills its mission, there will 
always be more to address from budgeting to personnel and 
foreign aid transparency.
    We would like to see the most efficient and effective H.R. 
management for State Department and USAID employees, 
transparency of foreign assistance programs, and efficient 
management of the budget, including large, unobligated 
balances.
    When it comes to the hiring and firing of the State 
Department employees it is also a priority of this committee to 
address any mismanagement allegations ever, ensuring fairness 
in the process and sufficient whistleblower protections.
    Last year, a report by the Government Accountability Office 
found that there is an approximately $31 billion slush fund 
sitting at the State Department. While I understand the need 
for a rainy day fund, moving around billions of dollars from 1 
year to the next between different accounts makes it difficult 
for Congress to conduct proper oversight over funding.
    This is evidenced by the fact that in the past this money 
has wrongly been used to negotiate with terrorists and 
facilitate hostage payments. For example, under the last 
administration, $1.7 billion in cash was delivered to the 
Iranians as a ransom payment for the release of American 
prisoners, a clandestine transaction Congress had absolutely no 
notice or oversight over.
    State, USAID, and others must always be as forthcoming as 
possible producing transparent budgets that reflect the real 
needs of the Department and, most importantly, the real needs 
of the American people. We must employ greater, accurate 
oversight and accountability internally within the State 
Department as well as over the foreign assistance programs that 
advance our Nation's values around the globe.
    I thank you all for being here today. I look forward to 
your statements. And while we will have some tough questions at 
times, I am sure none that you will be incapable of answering. 
The message that we would not want lost for all the men and 
women in your ranks is how much we appreciate their service and 
what they do to keep America safe to be a leader around the 
entire globe.
    Having visited many of your men and women who are overseas, 
while we often talk about men and women who are in uniform, we 
thank them for their service, the sacrifice away from their 
families, at times it could be for 3 months, 4 months. At 
times, you might be deployed for 21 months.
    We have a lot of State Department, USAID officials who will 
tell you about many, many years, multiple tours in different 
cities away from their families. So, while we appreciate that 
person in uniform who might be on their tenth deployment and 
our heart is with them and their families at home, what should 
not be lost are the amount of people in your ranks who are 
thousands of miles away from home often times maybe for an 
entire career.
    So, wherever they are watching us, we are asking these 
questions and hearing your statements with hopefully their best 
interest in mind always to ensure that they have the resources 
that they need, the support that they need in order to be more 
successful with their mission.
    And, with that, I yield back.
    Mr. Bera. Thank you.
    I am pleased to welcome our witnesses to today's hearing. 
We are joined by four public servants from State Department and 
USAID. From the State Department, we are joined by Ambassador 
Carol Perez, who serves as Director General of the Foreign 
Service as well as its director of human resources; and Mr. 
Douglas Pitkin serves as the director of Bureau of Budget and 
Planning. From USAID, we have Mr. Frederick Nutt is the 
Assistant Administrator for the Bureau of Management, and Mr. 
Bob Leavitt is USAID's Chief Human Capital Officer.
    I will ask the witnesses to limit their testimony to 5 
minutes.
    Without objection, your prepared written statements will be 
made a part of the record. Thank you so much again for being 
here and for accommodating us.
    I now ask that Ambassador Perez deliver her opening 
remarks.

STATEMENT OF THE HONORABLE CAROL Z. PEREZ, DIRECTOR GENERAL OF 
THE FOREIGN SERVICE AND DIRECTOR OF HUMAN RESOURCES, BUREAU OF 
           HUMAN RESOURCES, U.S. DEPARTMENT OF STATE

    Ms. Perez. Thank you very much, Mr. Chairman, Ranking 
Member Zeldin, and distinguished members of the subcommittee 
for inviting me here to discuss the fiscal 2020 State 
Department budget request.
    As Secretary Pompeo noted when he testified before the 
committee at the end of March, we have a remarkable work force 
and doing a very important mission. At a time of growing global 
complexity and competition, a strong department is critical to 
our success as a Nation.
    That is why, over the past year, Secretary Pompeo has 
prioritized putting the team back on the field. Under his 
leadership, we have welcomed 827 Foreign Service employees, and 
we have set our Foreign Service and Civil Service target 
staffing levels at 454 employees above the December 31, 2017, 
on-boarding staffing levels specified in the congressional 
fiscal 2018 appropriations.
    We have also stepped up employee engagement and 
communication and taken steps to expand training and 
professional development, fill vacancies, and reward the work 
being done by our employees.
    As Director General of the Foreign Service and director of 
human resources, I will focus my remarks on the $2.8 billion of 
that request for human resources and the Department's global 
work force.
    Our people, Foreign Service, Civil Service, family members, 
locally employed staff, are our greatest resource, and they 
deserve our full support. These women and men work both at home 
and abroad in service to the country. Our American personnel 
swear an oath to protect and defend the Constitution, often at 
great sacrifice to themselves and their families. Our locally 
employed staff sometimes also incur great risk working with and 
for the United States.
    The human resources budget request will support salaries 
for our approximately 25,000 domestic and overseas American 
employees. Our almost 14,000 Foreign Service employees, both 
our officers and specialists, are our forward-deployed force 
doing everything from opening markets for American companies to 
helping American citizens overseas.
    Our over 11,000 Civil Service personnel are the 
Department's institutional memory, continuity, and subject-
matter experts based mostly in Washington but also at our 
passport, security, and foreign mission offices across the 
country. Our eligible family members are a vital source of 
talent in our embassies overseas. Leveraging their skills is 
good for morale and a force multiplier in carrying out the 
Department's mission.
    I noted earlier the progress we have made in Foreign 
Service hiring and staffing. On the Civil Service side, we are 
on track to return to hiring levels significantly above 
December 2017 levels specified by Congress, but it has been a 
little slower due to the decentralized nature of Civil Service 
hiring.
    The fiscal 2020 request will support continued development 
of the talent and capacity of our Civil Service work force that 
is better prepared to address the challenges of today's 
international environment.
    Our 50,000 locally employed staff are in the mainstay of 
our U.S. diplomatic operations abroad, and we continue to look 
at ways to ensure we can attract and retain the best local 
talent.
    Mr. Chairman, successful organizations share one 
characteristic: they adapt.
    And in order to remain an employer of choice, we must 
innovate and effectively compete with the private sector to 
recruit, retain, and empower the best talent.
    As Director General of the Foreign Service and Director of 
Human Resources, I have made innovation a key focus area. We 
are prioritizing removing barriers and streamlining processes 
so our employees can focus on their core responsibilities. My 
team and I are also looking closely at improvements to our 
policies and procedures so we can better support our people.
    In that regard, the top request from the work force is for 
paid parental leave. And the White House has been vocal in its 
support for paid parental leave, and employees have welcomed 
the recently proposed amendment to the National Defense 
Authorization Act of 2020 providing all Federal employees with 
12 weeks of paid family leave.
    As a 31-year, almost 32, public servant, I am thrilled to 
see the growing bipartisan support for this important endeavor, 
whose time has come. If we are to live up to our aspiration of 
being a model employer for our people, we should not have to 
choose between our families and the career that we love.
    I would close by saying that the 75,000 strong Department 
work force is a winning investment for our Nation, and we 
deliver results for the American people every day. Thank you 
for the opportunity to be here, and I look forward to answering 
your questions.
    [The prepared statement of Ms. Perez follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Bera. Thank you, Ambassador Perez.
    Mr. Pitkin.

  STATEMENT OF DOUGLAS PITKIN, DIRECTOR, BUREAU OF BUDGET AND 
               PLANNING, U.S. DEPARTMENT OF STATE

    Mr. Pitkin. Thank you, Mr. Chairman, Ranking Member Zeldin, 
and distinguished members of the subcommittee for inviting us 
to discuss the 2020 State Department and USAID budget requests. 
As Secretary Pompeo also noted in his March testimony, our 
budget is designed around our National Security Strategy to 
achieve our foreign policy goals.
    The top line request of $40 billion combined for the State 
Department and USAID puts us in a position to do just that. 
This funding protects our citizens at home and abroad, advances 
American prosperity and values, and supports our allies and 
partners overseas. We make this request mindful of the burden 
on American taxpayers and take seriously our obligation to 
deliver exceptional results on their behalf.
    I will focus my remarks on the $13 billion diplomatic 
engagement appropriations request managed by the Department of 
State, which is distinct from the foreign assistance side of 
the budget, which my colleagues also will speak to. This 
comprises about one-third of the total budget request for 2020 
and supports the Department's work force, including the 
personnel resources Ambassador Perez mentioned, our public 
diplomacy programs, our global management platform of our 
overseas embassies and consulates, embassy construction, 
Diplomatic Security, and our assessed contributions to the 
United Nations and other international organizations.
    This request is nearly a $340 million increase over the 
Administration's Fiscal Year 2019 request, about a 3-percent 
growth rate, but it would be about 15 percent below the amount 
Congress enacted for 2019. We have submitted for the record the 
State USAID budget fact sheet for the record which outlines 
many of the specific numbers in our request, but I will 
highlight three of the major priorities.
    Our three major pillars of our appropriated funding that we 
use to manage the Department are $5.5 billion for diplomatic 
staffing, operations, and programs; $5.4 billion to secure or 
protect U.S. Government personnel overseas and domestically; 
and $2.1 billion for assessed contributions to the United 
Nations, including U.N. peacekeeping and other organizations 
like the OAS.
    The funding for diplomatic staffing, operations, and 
programs sustains our global work force, as the Ambassador 
mentioned, including our Americans and locally employed staff. 
And, again, the budget request would sustain our staffing at or 
above current levels consistent with the direction in the 
current appropriations.
    We are going to make continued investments in training and 
human capital development as well as continued support for 
public diplomacy programs, which are vital to influencing 
foreign opinion and countering misinformation about the United 
States.
    Highlights within this request include a new consolidated 
Bureau of Global Public Affairs, which provides greater 
efficiency and effectiveness in managing our public diplomacy 
programs and outreach, as well as a total request of $75 
million from the Global Engagement Center as authorized by the 
NDAA, a $20 million increase in the appropriated funds for the 
Department over current levels.
    Funding for our management platform includes increases for 
our regional bureaus to support new embassies and consulates 
that are scheduled to open up over the next 18 to 24 months, 
and this category of funding also underwrites most of our $2.5 
billion of information technology spending to help support and 
sustain the new Chief Information Officer's efforts to 
modernize our information technology platform, including cloud 
migration, consolidated software licensing, and greater 
customer engagement across the Department's IT platform.
    Our $5.4 billion request for USD personnel security is 
primarily for the Bureaus of Diplomatic Security and Overseas 
Building Operations. Highlights include a $60 million increase 
for cybersecurity, a 38-percent increase over current levels, 
to allow both DS and our IRM/CIO bureau to help increase our 
cybersecurity programs to protect our network's data and IT 
infrastructure.
    We have also requested $8 million for our Bureau of Medical 
Services to update embassy inventories of medical 
countermeasures to counter potential WMD and chem-bio threats.
    In addition to direct appropriations, the Department 
anticipates spending nearly $3.8 billion in consular revenues. 
These are the fees that we collect from visas and passports to 
help issue visas to overseas citizens and issue passports to 
American citizens as well as provide citizen services to 
Americans overseas.
    We anticipate collecting about $3.9 billion in revenues, 
and this is an area for which we are continually looking at 
ways to more efficiently use both technology and personnel to 
operate our consular services. Our request does include some 
minor fee adjustments to help address some structural 
imbalances in our revenue stream that we are happy to discuss 
as part of the discussion.
    In closing, I want to assure you that we are committed to 
using taxpayer dollars effectively. With continued 
congressional support, we will continue to advance our foreign 
policy priorities at home and abroad. And I look forward to 
answering your questions.
    [The prepared statement of Mr. Pitkin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Bera. Thank you, Mr. Pitkin.
    Mr. Nutt.

 STATEMENT OF FREDERICK NUTT, ASSISTANT ADMINISTRATOR, BUREAU 
    FOR MANAGEMENT, UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Nutt. Mr. Chairman, Ranking Member Zeldin, and 
distinguished members of the subcommittee, thank you for 
inviting me to discuss USAID's Fiscal Year 2020 operating 
expenses and capital investment fund budget request.
    Today I will be summarizing the written statements from Mr. 
Leavitt and myself. Since joining USAID in April this year, I 
have been impressed by the Agency's dedication to delivering 
development solutions to uplift some of the world's most 
vulnerable people while representing American values and 
advancing our foreign policy and national security interests. 
Administrator Green's vision for the Agency partners us with 
professional experts, local organizations, and host country 
governments to aid in their journey to self-reliance.
    For Fiscal Year 2020, the request to support the Agency's 
global operations is almost $1.5 billion, which includes nearly 
$1.3 billion for operating expenses, approximately $610 million 
for salary and benefits for U.S. direct-hire staff, and $198 
million for the capital investment fund.
    USAID recognizes the Agency's success is directly linked to 
a skilled, committed, and resilient work force so we have 
enacted human resources transformation elements that support a 
21st century work force, such as prioritizing recruitment and 
hiring, updating archaic personnel systems and practices, and 
expanding opportunities to diversify our work force through 
programs like the Donald M. Payne International Development 
Graduate Fellowship Program.
    Our H.R. successes, such as the debut of a new employee 
portal, the redesign of employee performance management, 
streamlining Foreign Service officer assignments and bidding, 
and the staff care program are described in Mr. Leavitt's 
written testimony.
    Overall, USAID requests $19 million dedicated to secure and 
protect staff and facilities. At headquarters, USAID has 
implemented the Washington real eState strategy, which is 
modernizing dated work spaces and technology while 
consolidating short-term leases from four buildings into two 
with anticipated savings of up to $2.5 million by 2025.
    The Agency has become a leader in Federal IT modernization 
and has enhanced cybersecurity protections. Over $143 million 
is within the operating expenses and capital investment fund 
budget request to upgrade information technology systems and 
data platforms. USAID also expects to consolidate multiple 
agency systems through development information solution, which 
would save the Agency approximately $2.2 million.
    USAID has used legislation to streamline budget execution. 
Thanks to FITARA, the CIO now has statutory authority to 
centrally manage all IT acquisitions and to implement other 
measures since being realigned to report directly to the 
Administrator.
    In December 2017, the Administrator announced a zero-
tolerance policy for audit backlogs. The Agency had 42 open GAO 
audit recommendations and 848 open OIG audit recommendations at 
that time, of which almost 100 were in backlog. We cleared the 
backlog ahead of schedule by May 2018, allowing us to reach the 
first agency transformation goal.
    USAID is already a leader in the Federal Government in 
managing agency risk and is one of only five CFO Act agencies 
to achieve the highest score of managing risk for all five 
functions in a 2018 risk management assessment.
    Additionally, the Agency has adopted an enterprise risk 
management framework. A key principle of our approach to our 
ERM implementation is the Agency's risk appetite statement, 
which provides staff with broad-based guidance on the amount 
and type of risk the Agency is willing to accept.
    In the fall of 2018, we released our acquisition and 
assistance strategy homing in on engagement and procurement 
reform to expand the local partner base. We launched the new 
partnerships initiative to make it easier for new and 
underutilized partners to work with us. We seek your support 
for the Agency's request to establish an acquisition and 
assistance working capital fund and transfer authorities for 
the IT working capital fund and adaptive personnel project.
    The acquisition and assistance working capital fund is a 
fee-for-service model similar to the State Department model, 
which would provide a consistent funding stream dedicated to 
management and oversight. It would permit the Agency to align 
and balance the work force to match evolving policies and 
priorities. As part of the Agency's effort to implement 
Modernizing Government Technology Act of 2017, the IT working 
capital fund transfer authority would allow us to obtain 
consistent funding to support important IT requirements.
    USAID is also seeking the necessary transfer authority to 
implement a pilot of adaptive personnel project allowing us to 
use program funding to hire term-limited Civil Service 
personnel as further discussed in the chief human capital 
officer's written testimony.
    With your support of the Agency's request for these 
authorities, USAID would be able to use appropriated resources 
to their fullest extent. These authorities provide the 
necessary flexibility to respond to the urgent, complex, global 
development and humanitarian crises as well as the operational 
resources needed to respond quickly.
    Your continued support means we will remain equipped to 
work with our partners to help countries in their respective 
journeys to self-reliance. Thank you, and we look forward to 
answering your questions.
    [The prepared statement of Mr. Nutt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The prepared statement of Mr. Leavitt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Bera. Thank you, Mr. Nutt, and thank you, Mr. Leavitt.
    I will now turn to my opening questions. I will then 
recognize the ranking member and our other members for 5 
minutes for the purposes of questioning the witnesses. I will 
now recognize myself.
    Ambassador Perez, in my opening statement--and I think when 
we had a chance to meet--and I do think I brought this up with 
Secretary Pompeo, I am really deeply concerned about the drop 
in morale at State Department. As I noted a few months ago, 
State is quickly falling to the bottom of the polls of the 
ratings of best Federal agencies to work at.
    In my opening, I touched on the GAO report. Part of that 
certainly is the chronic vacancies that exist at State and the 
stress and pressure that puts on the existing work force that, 
obviously have to pick up the workload for others, and that is 
certainly of some concern how we address that. And it is not--
as was pointed out in the GAO report, not unique just to this 
Administration. You have seen that in prior administrations.
    The other concern is, we have seen the registration for the 
Foreign Service officer tests. They saw a 22-percent decline 
between October 2017 and October 2018. We are still getting 
very qualified folks taking the test, but, again, there is some 
concern of--this NBC News report that suggested that fewer 
people were actually taking the test.
    I know you are in charge of implementing Secretary Pompeo's 
new State Department ethos, and, what I would like to ask as an 
initial question is, what does this new ethos mean in practice? 
How will it address and boost morale and make the State 
Department more attractive to that next generation of work 
force and help us recruit and retain? And, outside of just 
additional training, what does implementation of this ethos 
look like?
    Ms. Perez. Mr. Chairman, thank you very much for that 
question. And, in fact, I would like to touch not only on the 
ethos statement but on some of the other comments that you made 
in your opening statement, if that is OK with you.
    Mr. Bera. That would be fine.
    Ms. Perez. OK. So the ethos statement is a short and I 
think very powerful statement that actually embodies the values 
that the Department has had for many, many years. And we have 
had them in a variety of places, but we have never actually had 
a statement, something that everybody could look to and 
understand this really does embody our values, our culture.
    The other thing that struck the Secretary when he arrived 
is that we do not have a common way to share our culture. So, 
for example, Foreign Service officers join in cohorts. We come 
in classes. So you immediately have a group of anywhere between 
40 and 80 people who study together, who learn together, and 
they understand the Department together. Civil Service, it is a 
1-week orientation course, and there is no timeline for that. 
Political appointees, no matter what party, do not get any 
training.
    So the idea of the ethos is, first of all, to take all of 
these values you already have, put them into a statement that 
everybody could understand and recognize. A big part of this 
will be training. We are rolling out a training course this 
year.
    And the idea is to bring everybody together, whether or not 
you are a civil servant, a Foreign Service officer, a political 
appointee, a family member, you would have an opportunity to 
sit down together and talk about what it means to work for the 
best diplomatic team in the world. And we have never had that.
    So that is the intent. And the idea, I think, is that when 
people understand that they will have a better understanding of 
their colleagues. Doug is a civil servant, I am Foreign 
Service, but we need to work together like this. That happens 
at our level, but it may not happen to people just joining. It 
may not happen to people in younger ranks. So that is really 
the intent of the ethos.
    Let me just talk a little bit about the FEVS, and then I 
will go onto the GAO report. I think that the Federal 
Employment Viewpoint Survey is an incredible tool for managers 
and institutions to use, because it does actually allow us to 
drill down to a unit level and look at issues that employees 
care about. So that might be accountability. It might be how we 
reward people.
    This year, we are up 10 percentage points over last year. 
Forty percent of our population completed that. So that was a 
huge push on our part because what we will do then is make sure 
that people get the results and that there is a conversation 
between leadership and employees about where the Department is, 
where our strengths are, and where we need to improve.
    And then, finally, on the GAO report, that report took data 
from 2018, which was before Secretary Pompeo arrived. But I 
would acknowledge, it talks about the fact that we have had 
vacancies overseas for at least 10 years. Part of that is just 
the churn. Part of it is the fact that we rotate jobs all the 
time, we have people in training, so there is always a little 
bit of a gap for that.
    We are trying to be as creative as possible to fill those 
vacancies. So it is not necessarily that we need more permanent 
Foreign Service officers or specialists, but to use our family 
members to the extent that we can, to use programs like the 
Consular Fellows Program, to use our hard-to-fill exercises, 
our rotational opportunities for civil servants to work 
overseas to try to fill those gaps.
    The other thing we are going to do is just make sure that 
we are focused on making sure that those posts that are really 
under stress that we have the ability to go ahead and to 
respond to that.
    Mr. Bera. Great. Thank you.
    I am going to use a little bit of the chair's prerogative, 
but I will make sure you guys have a little bit of extra time 
just to ask a followup question, if that is OK.
    One thing that, when I am thinking about the chronic 
vacancies, I become aware of an unclassified Presidential 
instruction that went out to all the embassies and missions 
requiring the chiefs of mission to take a look at these 
chronically vacant positions that have been vacant for longer 
than 2 years.
    I have not seen the full cable, but it seems like every 
agency with personnel at an embassy like State, USAID, CDC, 
FBI, DHS has been asked to identify existing vacancies and to 
discuss whether or not to abolish some of these vacancies 
permanently with the Ambassador.
    I understand the importance of taking a look at, if there 
are positions that chronically are not filled; any organization 
is certainly within its right to take a look and say, well, 
does this position really need to exist?
    Ambassador Perez, can I get your commitment from you to 
perhaps provide my staff with that cable in full so we can take 
a look at it as well?
    Ms. Perez. Yes. Sir, I have to apologize; I am not sure I 
have seen that cable. But I will find it and we will provide it 
to you.
    Mr. Bera. Great. Thank you.With that, I will yield back.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Mr. Bera. I will recognize the ranking member for 5 minutes 
to question the witnesses.
    Mr. Zeldin. Secretary Pompeo recently merged the Bureaus of 
International and Informational Programs and Public Affairs, 
which will save money and better align our resources for the 
mission of the Department. However, Congress has been informed 
that there is still a lot of duplication in terms of human 
resources and executive support functions inside the public 
diplomacy family at State that could be eliminated. If you 
could speak to whether or not State is currently looking at 
this issue in an effort to make it more efficient.
    Mr. Pitkin. Yes, we are certainly aware of some of the 
feedback we received when we put forward the proposal in the 
December and spring timeframe. And I know that we have 
committed to taking a look at the overall executive support 
structure for those bureaus.
    I think part of the thinking is we want to complete the 
reorganization. There is still a lot of work to actually 
realign the positions and the resources. It is not just within 
the Public Affairs Bureau. We are also moving the Office of the 
Historian to FSI, moving some functions to the ECA Bureau, as 
well as to the Under Secretary's Office.
    So I think our effort is to complete the reorganization as 
initially notified so that all the personnel and staffing 
structure is in place as we start Fiscal Year 2020 and then, 
based on experience, look at where we can find additional 
opportunities for consolidation or look at the executive 
support function.
    So I think there are also some staffing gaps there, and so 
I think we are mindful that the same staff who we would be 
looking at how to rightsize or rationalize those functions are 
the same ones doing all the work to go through all the details 
of the finance and the staffing numbers. So we have committed 
to look at that.
    I know that the H.R. Bureau working with the public 
diplomacy team is looking at that as an issue, but right now I 
think we are trying to make sure we first complete the actions 
we have notified and received concurrence with and then come 
back with a potential proposal down the road.
    Mr. Zeldin. Yes. How is it going so far?
    Mr. Pitkin. Assistant Secretary Giuda's team is making 
tremendous progress. I think we are prepared to--the resources 
we are aligning now under the new function. Again, we have set 
a deadline to try to have as much of this done by the end of 
the Fiscal Year so we can startup Fiscal Year 2020 with a 
revised set.
    There is a tiger team with support from--extensive support 
from the management bureaus, certainly my bureau, the H.R. 
Bureau, the Management Policy Office. This really is a team 
effort not just on the public diplomacy side.
    So we regularly meet and engage with Assistant Secretary 
Giuda's team to make sure that we are providing all the support 
we can from the management side and then making sure that the 
staff working in the new bureau are getting everythng they need 
from us.
    We are pleased with the progress, but we are certainly 
planning to update the Hill and the committees by the end of 
the year, and certainly we are well aware of the interest in 
the executive support function.
    Mr. Zeldin. Thank you.
    Ambassador Perez, walk us through a little bit of the 
current state of the hiring and firing process. I mean, we hear 
of individuals, rumors something might get leaked to the media; 
it is best to go right to the source. And I guess just, 
generally, fill us in on the process.
    But specifically there was a video that came out. Are you 
familiar with the name Stuart Karaffa? There was a video of a 
State employee named Stuart Karaffa caught on a hidden camera 
proclaiming that he is part of the anti-Trump opposition and 
his job is to, quote, ``resist everything'' at, quote, ``every 
level.'' He said in the video, quote, ``I have nothing to 
lose.'' ``It is impossible to fire Federal employees,'' he says 
as he talks about doing political work in his cubicle. Are you 
familiar with this case at all?
    Ms. Perez. I think I may have seen the same stories 
published that you did but not intimately familiar with that 
case, sir.
    Mr. Zeldin. OK. If you could just walk us through the--
let's call it a hypothetical then. Can you just walk us through 
the process of how State handles cases like this? How hard is 
it? What additional tools do you need?
    Ms. Perez. So I think you are talking very broadly about 
how we deal with performance and conduct issues.
    Mr. Zeldin. Please.
    Ms. Perez. And we do have a--we have an office within H.R. 
that is called Conduct, Suitability, and Discipline. And, in 
fact, you will note in our budget request that we for 2020, I 
think, right, the one for last year--this year, we have asked 
for a doubling of the number of analysts that we have for that 
office.
    We did benchmark the Federal agencies, and generally, there 
is one conduct suitability analyst for every 500 employees in 
an agency. We have one for every 2,000. So that is the reason 
for the doubling. It is still going to put us at 50 percent of 
the staffing that we should have, but I think it is important 
for us to start to move in this direction.
    So we do follow all the principles that employees have. we 
do have two different personnel systems under title 5 and under 
title 22, and we do file those streams to make sure that the 
Agency has an opportunity to do the appropriate--whatever they 
may need to do in terms of conduct issues and also that there 
are the protections that each employee has as well because they 
are obviously both very important.
    And we do work closely with the Office of Civil Rights, the 
Office of the Inspector General and Diplomatic Security. They 
are actually the people that send us most of our cases, and so 
they are the ones that would do the investigations, provide us 
with information.
    It then comes to this division in my bureau that is 
responsible for sitting down, doing case review, and then 
making recommendations about appropriate discipline. This may 
be something better that if we were to send you some 
information to outline this because it is a little bit 
different for the two groups of employees.
    Mr. Zeldin. OK. For sake of time, I am going to yield back, 
but I believe there is going to be a second round so I might 
just pick up where we are leaving off.
    I yield back.
    Mr. Bera. Thank you to the ranking member.
    The gentleman from California, Mr. Lieu, is recognized to 
question the witnesses for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Ambassador Perez, thank you for your long history of public 
service. I would like to ask you questions about the lack of 
diversity in the State Department. My questions are not 
intended to assign blame. This has been happening, as across 
administrations, both Democratic and Republican, although it 
has been somewhat worse with this Administration. I am just 
trying to understand what the issues are and how we might be 
able to mitigate them.
    So, based on percentages from your own Department, it does 
show that there is a lack of minorities in the Foreign Service. 
And, for example, the senior levels, we know there was a 
decline for African Americans in the senior Foreign Service 
from 4.6 percent in September 2016 to 3 percent in March 2019.
    So my first two questions are: Why do you think the 
percentage is so low for minorities in the State Department? 
And what is the State Department doing, if anything, to try to 
make that better?
    Ms. Perez. Thank you for that question, Mr. Congressman. I 
think there is a couple of things that have happened. First of 
all, the Federal agencies were not really focused very much on 
diversity 15, 20 years ago or 25 years ago. And so what you see 
at the senior ranks is a reflection of those hiring practices 
that we had back then.
    When I, as a Foreign Service officer, that people look at 
me--I am, a female officer so, obviously, not an ethnic 
minority, but I consider myself a minority still. We have a 
lack of women in the senior service because 25 years ago there 
was not an emphasis placed on trying to attract women into the 
Foreign Service. So that is part of the issue at the senior 
ranks.
    And what happens is, because the numbers are small in the 
senior ranks, if somebody retires, if somebody leaves, our 
percentages obviously drop significantly and so you do see some 
of that. We have done a much better job over the-- in the last, 
10 years or so. We continue to try our hardest.
    We have a network of 26 recruiters. We have 16 all over the 
United States, and they are there to recruit for diversity. We 
want diversity in the broadest sense, so it could be race and 
gender, ethnicity. It could be diversity in terms of geography. 
not necessarily everybody goes to the East Coast schools or, 
grows up on the East or West Coast. I am from the Midwest, went 
to a small college, and I have managed to succeed because I 
have been given this opportunity, these wonderful opportunities 
by the government.
    So we are trying our hardest. That is our frontline of 
defense is to--or offense, I should say, to go out and make 
sure that we are in touch with those populations. Our 
fellowship programs are extremely popular. In fact the two 
flagship are the Rangel and Pickering fellowships.
    Last year to this year, our number of applicants was over 
1,600 for 60 positions. In the case of the Pickering, it was 
170 percent increase over last year; and in the case of the 
Rangel, it was a 50-percent increase, over 50 percent increase.
    So our fellowship opportunities still are an incredible 
source for us. They have increased the rate of diversity hires 
since they started by 29 percent, which is very significant. We 
are looking at other ways we might have more fellowship 
programs.
    We also want to do this for our specialists because the 
honest truth is we get--we still have a very robust register of 
Americans who would like to be a Foreign Service officer. It is 
a little bit tougher on the specialist side. So we are looking 
at things like how to do IT fellowships, which would mirror 
those, but, again, looking to make sure that we increase 
diversity inside the Department.
    So part of it is recruitment, and the other part is 
retention. And for retention, we are doing a couple of things. 
We have started an unconscious bias course, which we are 
suggesting that hiring managers especially take, people that 
are sitting on our promotion panels so that they understand 
what unconscious bias is and how it affects people.
    We will have an online course available by the end of the 
year, at which point we will roll it out to our work force 
worldwide. And we also have a study from--funded by the Cox 
Foundation--that is going to look at barriers to the senior 
ranks for various groups of people who are not there now, 
women--certain cones--minorities. So that was just funded by 
the Cox Foundation. We hope to have some answers by the end of 
December.
    So I want to look at both the entry, obviously, but then 
the barriers. I think there are barriers that start before 
entry. We need to understand that better. And then to make sure 
once people are in, do they feel included, because it is not 
just diversity; it is inclusion. Somebody said to me, diversity 
is when you get invited to the party and inclusion is when you 
get invited to dance. And we want to make sure everybody is 
dancing.
    Mr. Lieu. Well, thank you. So let us know how we can be 
helpful.
    Mr. Leavitt. Congressman, can I add to that question for 
USAID?
    Mr. Lieu. Sure.
    Mr. Leavitt. The USAID has also been quite aggressive with 
regards to our diversity initiatives. Our hallmark program is 
the Payne Fellowship Program, which helps bring in incredible 
talent into the Foreign Service, particularly from groups not 
historically represented in international development. We have 
also been working with our Pathways Internship Program to make 
sure that we have significant minority representation.
    In addition to the diversity outreach programs and the 
engagements that we have with the universities around the 
country, we are also looking very deeply into the way that we 
manage our own processes, promotions, assignments for Foreign 
Service officers to make sure that we train everyone involved 
in implicit bias as well, and as well as looking very deeply at 
our demographics and who is at what level in our career 
services, Civil Service and Foreign Service, really testing 
ourselves to make sure that we are adequately represented at 
all levels. And we will gladly followup with you on the results 
of our analyses.
    Mr. Lieu. Thank you. We would appreciate the information.
    Mr. Bera. The gentleman from Pennsylvania, Mr. Perry, is 
recognized to question the witness for 5 minutes.
    Mr. Perry. Thanks, Mr. Chairman.
    And thanks for the panel for being here. I think my 
questions will probably go to Mr. Pitkin and Mr. Nutt 
initially. What I am looking at is the White House balances of 
budget authority document, total unexpended balances by agency. 
At the end of 2017, the unobligated number is 24,686. At the 
end of 2018, it is 27,022, and this is in millions, so--and 
then I guess it is projected at the end of 2019 to be 23,915. 
And I am wondering what happens to that and how you account for 
those funds at the end of each year. Well, let's start there.
    Mr. Pitkin. I think that is two parts. One is I think we 
recognize that the Department and AID both, since we operate 
global programs on a global platform, our appropriations have 
generally given us various forms of multiyear authority 
particularly for some of our larger, more complex programs.
    A good example of that is our Office of Overseas Building 
Operations, which maintains our overseas construction and 
maintenance program as no-year fiscal authority. And in order 
to make sure that we are fully funding projects upfront, when 
we start a new project, we fully budget for that project and 
ensure that we have the funding to obligate.
    So, for example, on the line item for the ESCM, Embassy 
Security Construction Maintenance account, that unobligated 
balance runs between $6 billion and $8 billion a year, 
reflecting on projects that have been approved, notified to 
Congress for which essentially we have put the money--committed 
toward a particular project but we do not obligate until we 
actually incur contract obligation that would meet the standard 
test for a fiscal commitment of resources.
    So actually a good chunk of the Department's unobligated 
balances are for those programs. Similarly, for example, 
Consular Affairs is a fee-based bureau, and they collect, as I 
noted earlier, about $3.8 billion annually. They only can spend 
money as it comes in.
    So, typically, we are rolling over about $2 billion at 
least from the end of one year to the next because we have to 
have the money in hand before we can expend it on personnel 
contracts and payroll. And so that is different perhaps than 
appropriation which we essentially typically have running on an 
annual cycle.
    Similarly, Diplomatic Security under Worldwide Security 
Protection under the Diplomatic Programs account, that is the 
no-year appropriation, and one of the major areas that DS 
spends its money on is guard services contracts to provide for 
the guard forces overseas.
    And there again, often we have periods of performance of up 
to 18 months, and so often DS is managing multiple contracting 
vehicles at one point in time. In some cases, particularly 
because it is no-year money, they are not as prone to having to 
move money through the procurement pipeline in the last few 
days of the year.
    So, for the Department at least, it really is those major 
categories of no-year accounts, no-year appropriations where, 
based upon the authorization of appropriation, the funds are 
available until expended. We still manage it year by year, but 
it does relieve--it does result in some of those end-of-year 
balances that you noted.
    The percentages are lower on the accounts with single-year 
appropriations so our core operating account Diplomatic 
Programs has a much more limited authority, so I think there 
are certainly lower balances there and so, again, it just 
depends on the account. Education and Cultural Exchanges 
account, our cultural programs, many of those projects are 
awarded at the end or beginning of the year, so, again, we have 
unobligated balances there as well.
    So we do track it at the end of the year. We submit 
quarterly reports to the committees to track account by account 
and show those balances. I meet with my team every month to go 
over it for our appropriations. If we sense it is going out of 
balance and the levels are spiking up above current rates, we 
certainly work with the relevant bureaus as well as our 
financial staff to see if there is something amiss in the 
underlying spend rate. So the percentages you cited are, I 
would say, within our historical norms, but it also is a 
reflection of our operating environment.
    I would also just say, again, many cases, we are receiving 
our appropriations in May and fairly late in the fiscal year. 
We appreciate that is just part of the dynamic we operate 
under. But to a certain extent, that multiyear authority gives 
us a little more flexibility to execute resources once they 
have been appropriated by Congress.
    Mr. Perry. And everything you said makes sense to me, 
although I do question, I mean, you said that the building, for 
instance, fund, for lack of a better phrase or term, is $2 
billion.
    Mr. Pitkin. Annually, yes.
    Mr. Perry. Annually. But we are talking, I am looking at 
$24 billion, $27 billion, $23 billion, so there is, you know--
let's just be generous and say, there is $20 billion extra so 
to speak. I mean, does that--all that other stuff seems like 
not enough to count for $20 billion, and do you reconcile that 
down to zero every single year?
    Mr. Pitkin. Absolutely, we reconcile that. So we track it 
down for each appropriation. We work on looking at if we have 
unliquidated obligations, essentially balances that have not 
been spent. And there is a process that we go through each 
year. In fact, we are in the midst of it now as we go into the 
fourth quarter to reconcile and find out where those balances 
can be corrected. It is certainly something that our auditors 
and the Office of Inspector General focus on very closely, and 
so it is part of our responibility to focus on those balances.
    Again, I think it goes program by program for both the 
operational activities I mentioned earlier as well as some of 
our foreign assistance programs, whether it is FMF. We have a 
number of multiyear authorities as well. We are often--of 
course, we are working very closely with both our partners 
overseas as well as with the Congress to ensure that those 
programs are spent for the purposes that Congress intends. So I 
am confident that we can account for all that. The dynamics for 
each of the programs will vary depending upon what the actual 
spending is.
    Mr. Perry. Is there ever an opportunity where they are 
unobligated and something changes where they would not be 
obligated for the intent that Congress had and they would not 
be used?
    Mr. Pitkin. If there is a particular case, whether or not 
you have used occasionally, either the Administration or 
Congress has enacted rescissions of balances or transfers of 
balances. So there was a rescission, for example, of about $300 
million of the Worldwide Security Protection Funds. That is for 
Diplomatic Security. That was funding provided in the Fiscal 
Year 2017 D-ISIS supplemental.
    And based upon conditions on the ground and the spend rate, 
there was a recognition by both Congress and OMB that some of 
those balances could be rescinded essentially as an offset to 
the appropriation for this year.
    And certainly, in my tenure, going back to the post-
Benghazi period, we identified $1 billion of balances that 
could be realigned from our operations particularly in Iraq to 
help make investments in security operations in the rest of the 
world.
    So, when we have had an opportunity to reprogram or rescind 
balances to either create an offset or return funds back to the 
Treasury or to create an offset for another priority of shared 
interest with the Administration and Congress, we do that as 
well.
    Mr. Perry. Thank you, Mr. Chairman. My time is expired.
    Mr. Bera. Thank you. Since we are small group and we have 
got a little bit of time and I appreciate your coming down to 
the Hill, we are going to do a second round of questions, and I 
will recognize myself for 5 minutes.
    And let me direct questions to Mr. Nutt and Mr. Leavitt. I 
appreciate USAID operates in a pretty complex and demanding 
environment, and you really do respond to every humanitarian 
and development requirements in an increasingly complicated 
world. So I really do applaud the outstanding work that your 
work force does.
    But I also know that USAID's personnel system is equally 
complex, and USAID has a multitude of hiring mechanisms. As a 
result, some of our best people serving in hardship posts do 
not often qualify for life or health insurance or sometimes 
have to quit and reapply for their jobs every few years. What 
are some things that Congress could do to simplify these 
authorities and mechanisms?
    Mr. Leavitt. Thank you very much for your question, 
Chairman Bera. It is an honor each day to work with our 
colleagues and to support what they do around the world.
    On our side, we have a complex work force. We have 
employees who work under multiple mechanisms with multiple 
authorities, and it is not unusual for one supervisor to manage 
people on four or so different mechanisms. It is an inefficient 
process.
    On our side, we do request your support for adaptive 
personnel project. Our adaptive personnel project seeks to 
pilot 300 positions for our health workers, for our 
humanitarian workers, and for those that work in crisis 
situations.
    Specifically, what we are looking for is a transfer 
authority so that we can make this pilot effort a reality. What 
this will allow us to do is to rely less on some of our other 
employment mechanisms in order to best support our work force, 
particularly those that are working in very difficult 
environments.
    In addition to that, overall we do request the transfer 
authority also for our IT work force working capital fund, and 
we also request the authority to establish a working capital 
fund for acquisition and assistance. These three requests for 
the capital working funds, assistance, and acquisition as well 
as for IT, as well as for the adaptive personnel project is 
critical for us being adaptive and agile in responding to the 
needs worldwide.
    Mr. Bera. Well, thank you for that.
    And, Mr. Leavitt, I would ask you or your staff to 
certainly meet with my staff, and we can try to see what we can 
do to empower USAID and the folks that work for you in a more 
efficient way.
    Ambassador Perez, I am glad you touched on something that 
is in the NDAA bill that we will be voting on, I imagine, 
tomorrow. Paid family leave for Federal employees.
    And certainly when you and I met and we talked a little bit 
about how we retain kind of those mid-career employees, the 35-
to 40-year-olds, who are our next generation of senior 
diplomats, and the demands of repeated postings overseas, et 
cetera, for someone who may want to start a family.
    We ask the private sector to provide paid family leave, yet 
we do not do it for our personnel.
    And you touched on it. Can you, talk about what something 
like that would mean for those mid-career folks and the morale, 
as well as our ability to retain this talent?
    Ms. Perez. Yes. Thank you very much, Mr. Chairman.
    As you and I discussed when we met before, one of the 
things that I did when I came on board 5 months ago was to step 
up engagement. And we have this innovation portal, and we ask 
people to send us their ideas. We received over 400 now. We 
launched it May 15th. The vast majority, when we looked at 
workplace issues--and this is all the retention, this is all 
about making the State Department the best workplace possible--
were about things like paid parental leave.
    These are generally coming from--as you said, these are 
relatively new employees. They do not have enough time in 
Federal service to have sick leave, to have annual leave. We 
obviously allow people to advance--get advanced leave up to a 
year at a time, all according to the rules and regulations, but 
it is just not enough.
    We have a leave bank, as many other agencies do in town, 
but you have to be out of leave before you can actually get 
leave paid.
    So 12 weeks would be ideal in order to have families be 
together. I raised three children in the Foreign Service, and 
it is tough. And we are away from families. We are away from 
our support systems. When you move every 1 to 2 to 3 years, you 
have to make new friends; you have to have a new medical 
system. So this would be something that I think our work force 
would really greatly appreciate.
    Mr. Bera. Well, again, the NDAA that we will be voting on 
does have paid family leave for Federal employees. So look 
forward to continuing to work with you on that.
    With that, I will recognize the ranking member for 5 
minutes to question the witnesses.
    Mr. Zeldin. Thank you, Mr. Chair.
    And, Ambassador Perez, so picking up where we had left off, 
with regards to Stuart Karaffa, if that is something that we 
can followup with after this hearing, we would just like to 
know more details as far as what happened in that case. Did he 
get administrative leave? How long did it take to fire him? Is 
that a----
    Ms. Perez. I actually have some information, because I have 
this crackerjack staff, and they must be watching this hearing, 
so they did send me something. And my apologies, that must have 
happened just about the time I arrived. I do not remember the 
exact date, and so I was not, personally involved.
    Mr. Zeldin. Great.
    Ms. Perez. So this individual had his security clearance 
suspended immediately after we became aware of the incident, 
and after that, he resigned.
    Had he not, Diplomatic Security would have continued the 
investigation, and he would have been suspended without his 
clearance while that investigation was concluded.
    After that investigation was concluded, then it would have 
been up to my office to determine what the appropriate 
discipline would have been, and it could have been anywhere 
from a reprimand to suspension to removal. But because his 
security clearance was suspended immediately, he opted to 
resign, and that was the end of that investigation.
    Mr. Zeldin. OK. Thank you.
    Are you familiar with a person named Yleem Poblete?
    Ms. Perez. I met her once. She was an assistant secretary 
for one of the bureaus in the building.
    Mr. Zeldin. And she is no longer at the State Department?
    Ms. Perez. Yes.
    Mr. Zeldin. Do you know anything about why she is not there 
anymore?
    Ms. Perez. Sir, I do not. I am responsible for career 
Foreign Service but not political appointments. That is a 
handled by the Office of White House Liaison.
    Mr. Zeldin. Mari Stull, are you familiar with her case?
    Ms. Perez. I am aware of name. But she was not--again, 
another noncareer employee. And the division that I am 
responsible for is career, but not for the noncareer. So the 
Office of White House Liaison would be--would have knowledge.
    Mr. Zeldin. Got it. So Stuart's case would be one that 
would be under your jurisdiction; the other two would be 
outside of your jurisdiction?
    Ms. Perez. Correct. Because he was a career employee of the 
Department, and we already have 75,000 of those, when you 
consider--when you include our local staff. And then the 
noncareer appointments are handled separately from my office.
    Mr. Zeldin. OK. Thank you.
    And one quick followup on the Stuart Karaffa case. As you 
went through the hypothetical of what would have happened had 
he not resigned, would you expect him to have been removed at 
the end of that process, or do you think he would have stayed 
at the end of that process?
    What--is that recurrent where you have--let's say you have 
a--let's say you have a Democratic President and a very 
conservative State Department staffer, or you have a Republican 
President and a very liberal staffer, and they are quite 
rebellious, speaking out on and implementing their own vision 
and mission. What is the message, through the ranks when that 
happens? Is that something that results in a termination, or is 
that something that results in less than termination?
    Ms. Perez. So I have been in the Foreign Service for well 
over 31 years, and the message to everyone is, we are here to 
support the American people. And I have worked for both 
Republican and Democratic administrations, and I have had 
senior level positions in both. And, this is what we do because 
we support the interests of the American people.
    It is not to say that there are not individual employees 
that do things like this individual did. And, this is--it is a 
problem. I think it is a bigger problem now when we have social 
media that is just 24/7. That did not exist when I came in 
obviously. Colin Powell brought us internet to the desktop that 
my newer colleagues cannot imagine.
    But I think, for the rest of us--this is why I think a 
statement like the ethos is important. And the ethos does 
recognize, as I said, those values that are critical for us. If 
we are, again, going to be the best diplomatic team in the 
world, that is what we need. And it talks about defending the 
Constitution, and it talks about serving proudly, and it talks 
about unfailing professionalism. Those are all things that I 
grew up with. And that is what I try to tell my team when I 
travel, and I have had the opportunity to travel quite a bit.
    This is the most rewarding job in the world. But we have to 
work together; we have to pull together. And at the end of the 
day, it is not about us; it is about the American people.
    Mr. Zeldin. And that is why it was really important in my 
opening remarks. This happens, in every agency in government, 
out of government.
    What should not be lost in our back and forth that we are 
going to have today is that your ranks are filled with amazing 
Americans which really make up nearly 100 percent--maybe it is 
not 100 percent, but, it is nearly that. You do have great men 
and women. That shouldn't be lost.
    Do you happen to know if--how long it was before Mr. 
Karaffa resigned?
    Ms. Perez. She did not give me that detail, but we will get 
that back for you.
    Mr. Zeldin. OK. And do you know if he was suspended with 
pay?
    Ms. Perez. He resigned. So he was--I do not----
    Mr. Zeldin. You did not get to that point?
    Ms. Perez. I am sorry. We will get you the timeline--she 
just says here that his security clearance was suspended 
immediately, and then he resigned. I do not know if that 
happened in a day or 2 days or 3 days. But we will get that for 
you.
    Mr. Zeldin. I am glad we had a second round. And as you 
pointed out, you have a crackerjack staff, but you are saying 
that in the most positive way because I do appreciate the more 
detailed answers that you are able to give with regards to his 
case.
    And thank you again for--to the chairman for holding 
today's hearing. I yield back.
    Mr. Bera. Great. Let me recognize the gentlelady from 
Minnesota, Ms. Omar, is recognized to question the witnesses 
for 5 minutes.
    Ms. Omar. Thank you, Chairman.
    And thank you all--to the ranking member and thank you all 
for being here.
    I wanted to chat a little bit with you, Mr. Nutt. One of 
USAID's publicly Stated missions is the promotion of greater 
economic opportunities for women throughout the world. But in 
reality, the work that this Administration has done and some of 
the policies that it is pushing for have been detrimental to 
women's prosperity and empowerment in a whole host of ways.
    There is a wealth of academic research showing us that 
gains in women's education and employment can be attributed to 
increasing access to contraception. That access has given 
millions of women control over their future and better enable 
them to participate in work force and contribute both to local 
and global economies.
    And so I am wondering if you can tell us how the policy 
priority that we have in our mission makes sense in regard to 
the proposed cuts to family planning that your Department is 
putting forth.
    Mr. Nutt. I have not been briefed on that particular matter 
at this point. I know the Administration--the Administrator has 
been pushing an initiative to push out the implementation and 
the programs of USAID down to the more local level and to the 
betterment of people in country. But I cannot speak to your--
your immediate question, but I can take that question for the 
record.
    Ms. Omar. Wonderful. Mr. Leavitt, do you have----
    Mr. Leavitt. As my colleague has answered, we will gladly 
followup with many details for that, details that will 
demonstrate the breadth and extent of our basic education 
programs and higher education programs around the world and how 
in many cases they prioritize access to education to girls, to 
young women, how we advance entrepreneurial types of programs, 
economic livelihood type programs, in support of girls and 
women. So we have a wealth of programs that help advance----
    Ms. Omar. No, that is well and dandy. My question was 
investment in family planning and the opportunities to have 
access to contraception and how we know that there is so much 
research that backs that that gives families the ability to 
have advancement when the girls and the women in the family 
have an ability to earn an education and enter the work force.
    Mr. Leavitt. And we look forward to following up with you 
with a detailed followup.
    Ms. Omar. Wonderful.
    Ambassador, I wanted to followup with Mr. Lieu's questions 
earlier in diversity in hiring, promotion, and retention.
    You had mentioned earlier that you wanted to take a broad 
definition of diversity, and I wanted to see who is included 
within that definition.
    Are we including people with disabilities. OK? Is that a 
yes?
    Ms. Perez. I am sorry, Congresswoman, yes. That is a yes.
    Ms. Omar. Does that include the LGBT community?
    Ms. Perez. Yes, it does.
    Ms. Omar. Does it include religious minorities?
    Ms. Perez. Religious minorities are protected under the 
civil rights code, so yes.
    Ms. Omar. And are we currently collecting that data for 
these categories?
    Ms. Perez. So the data collection is done on a volunteer 
basis, which has always been one of the struggles. People have 
to self-identify. And we do not, I believe, collect on all of 
this--I will have to get back to you, Congresswoman, because I 
am not sure about some----
    Ms. Omar. Do you think it is helpful for us to collect this 
data? Does that inform us in some sort of way to make sure that 
we are able to diversify and promote and retain people?
    Ms. Perez. I think sometimes it would. For example, I chair 
the committee that looks at assignments to principal officer 
position and deputy chief of mission positions. And one of the 
things we look at is diversity: Are we making sure that we have 
the most diverse slate of candidates for every position?
    Now, 12 people sit on the committee. These are senior level 
jobs. We tend to know a lot of people. We are not that big. So 
sometimes we know somebody is diverse. But then it may not show 
up on their profile because they have opted not to do that.
    So we have left it up to the individual. I think sometimes 
that those could hurt the statistics, of course. And sometimes 
it is just someone at the table who says: Listen, I know that 
this candidate is a diverse candidate.
    But we do not yet--we do not have something in place. Yes, 
I am sort of on the fence. I do not want to necessarily push 
somebody. But, yes, does it hurt people sometimes? And 
obviously, we do not have a really accurate record.
    Ms. Omar. I appreciate that. And I hope that we are able to 
look at it. Because the reason I ask is that I anecdotally hear 
Muslims leaving this department because of this 
Administration's perceived hostility toward the Muslim 
community. Or the LBGTQ community leaving because of that 
perceived hostility. And so I want to make sure that we have 
the relevant data in regard to retention and see if there are 
ways that we can make sure that we are dealing with that as we 
go forth.
    Ms. Perez. And those that you mentioned are some of the 
most difficult because it is not so obvious. And so I think 
that is also an issue.
    What I would say more generally is that our attrition rates 
are not very high.
    Ms. Omar. Yes.
    Ms. Perez. And they are trending on historical levels. So, 
for entry level--I am talking about Foreign Service now, not 
Civil Service--it is 2 percent. At the mid-level it is about 4 
percent.
    Where you see the spike is where when you get to the senior 
levels, but you have people that age out. We have a system--it 
is an up-and-out system, so they have time-in-class 
limitations, time-in-service limitations.
    We have not seen much of a difference. I know I have looked 
at the gender issues, but, we do keep an eye on that to make 
sure if there is anything that goes wrong--again, trying to 
understand what the barriers are and making the work force 
aware of inclusion. As I said, once you are in the door, then I 
think the inclusion is so important, so to making sure that 
people are aware of what they do and their actions and how that 
affects inclusion.
    Ms. Omar. I appreciate that, and I hope we will have a 
followup conversation on this, because I think it is important 
for us to have clear protections put in place for religious 
minorities and other vulnerable communities so that they are 
able to fully participate in every single department within 
this Administration.
    And I hope that we are able to have the opportunity for us 
to get the answers that--to the questions I had asked in regard 
to family planning and how that feeds into the broader mission 
of your department.
    Thank you. I yield back.
    Mr. Bera. Great. Thank you.
    The gentleman from Pennsylvania, Mr. Perry, is recognized 
to question the witness for 5 minutes.
    Mr. Perry. Thank you, again, Mr. Chairman.
    Ambassador, just following up on the gentlelady from 
Minnesota's questioning, do you conduct exit interviews with 
the folks that depart the Department?
    Ms. Perez. Congressman, we do. But we do not do it for 
everyone. So we do not have a requirement right now. We are 
moving to an online system so that it will be an easy thing for 
everyone to do the exit surveys when they depart.
    I used to look at those for every Foreign Service Officer 
that resigned. Not retired, but resigned. We send them a letter 
and thank them for their service. We had the exit surveys 
attached to that. Some people filled them out; some people did 
not. So we did not collect good data.
    Mr. Perry. So it was completely voluntary?
    Ms. Perez. Voluntary, right. The other thing, though, that 
I think is important--and we are going to pilot this early next 
year--I think we should do stay surveys. So not only why people 
leave--because then it is too late--we need to figure out why 
are people staying, what is it that is important about what our 
organization offers that encourages them to stay.
    Mr. Perry. I am sure that is great. I am just concerned, 
because there is a supposition that goes with it that folks are 
leaving for a certain reason. And can you quantify, if that is 
true, if they feel that because this Administration is 
something or something else, that that is why they left? I 
mean, is that something that can be quantified right here, 
right now?
    Ms. Perez. Not right now because of the voluntary nature of 
it and because it is more of a pen-and-pencil exercise. We are 
looking to make this--as I said, it would be an online system.
    Mr. Perry. Right.
    Ms. Perez. So that we can----
    Mr. Perry. There is no empirical evidence at this time to 
validate that claim. I mean, there might be anecdotal 
incidents, but there is no empirical evidence right now to 
support that claim?
    Ms. Perez. Well, just because we do not have a-- a system 
that is required, we do not have that. The other thing is that 
civil servants--Foreign Service and Civil Service systems are 
completely different.
    So, in the Foreign Service, we have a better handle on who 
is there and who is not. Because generally people resign and 
they may be overseas, we have to bring them back to Washington. 
So we probably have better information, better data for Foreign 
Service officers. I am not sure that we are doing quite the 
same on the Civil Service side because it is one action at a 
time, one person hired, one person departs.
    And my office, by the way, does not handle all of those 
transactions. It is distributed among many, many different 
bureaus in the Department. So it is not just a question of what 
data I have, which would be for Foreign Service, but what the 
rest of the data shows, which is the entire Department.
    So we have a ways to go in an effort to collect the data.
    Mr. Perry. At this point in time, there is no system 
overall that would capture that kind of information?
    Ms. Perez. Not to be 100 percent accurate for the entire 
work force.
    Mr. Perry. All right. Another question I have is, part of 
the problem with chronic vacancies, such as Bangladesh, is that 
Foreign Service officers choose not to go there. And State 
already has the authority to direct individuals to a post. Do 
you use that authority? Have you used it, and is there a case 
where you are not using it that we should know about or why you 
would not use it if there is a vacancy, but someone that should 
be or could be directed to the post?
    Ms. Perez. I have actually used the authority in my 5 
months. It is not used very frequently, but I do. It is 
partially because we are now in the point of the cycle--most of 
our vacancies occur in the summer. And so people will start to 
bid on positions for next year in the fall. The average cycle 
for that assignment is about 6 months.
    Generally, most of the work force has a job by April. When 
they do not and it comes time for them to depart their current 
assignment, I start sending them letters, encouraging them to 
find a job. And if they will not, then to say that I would 
direct them.
    And when people are not able to find jobs, for whatever 
reason, because they choose not to bid whatever, then we do 
direct.
    We are going a different route. We have changed something. 
We have something called the special incentive program. And 
what that is--we have always offered incentives for our AIP 
posts, Afghanistan, Iraq and Pakistan. We have generous 
compensation plans for employees that want to go there.
    So we are expanding that now. This year, because it is 
something new, we are going to start with other unaccompanied 
posts. This will include Cuba, Somalia, Central African 
Republic because, again, we want to get our employees into 
these tough places. But we understand there are risks. They are 
not with their families.
    Mr. Perry. I understand as well. And I do not want to cut 
you off, but I have limited time.
    But I see your mission similar to my mission over the 
course of my life in the military. And there are jobs and posts 
and positions that I desired, right? And I let my command know 
those things, and I worked toward those things.
    And when the command said, ``Well, that is great, but you 
are going here and you are going to did do this,'' I would say, 
``Sir, ma'am, I would like to blah, blah, blah.'' And they 
would say, ``Yes, that is great; you are going where I said.''
    And I said, ``Roger, sir, roger, ma'am,'' and I moved out, 
and I got after my business and did the best job I can. And if 
you are going to work for the U.S. Government and serve--and 
serve--just like I tell young aspiring applicants to one of the 
academies, understand you are here for service. You might think 
you are going to be an F-18 pilot in the Navy; maybe the Army 
thinks you are going to be a chemical officer. You want to 
serve or not? And that is the question.
    And so we hope that posts are not going unfulfilled because 
individuals have a particular personal desire. We get it, but 
it is the needs of the country, it is the needs of the Nation, 
that they are agreeing to serve. And if they cannot follow 
through with that, then they ought to consider maybe a 
different line of work.
    And with the chair's indulgence, one more question for Mr. 
Pitkin. And not that you were present when it happened--maybe 
you were; I do not know. But I think the American people and 
certainly I wonder, we are not going to litigate the timing or 
the coincidence of the payment to Iran. But I do wonder where 
the $1.7 billion came from. Did it come out of the unobligated 
funds, or did it come from--where did that come from? Do you 
know?
    Mr. Pitkin. With the general parameters, I think we would 
have to go back and check. My understanding is that it actually 
did not come from Department of State resources; it came from 
other assets. But we can take that back and confirm.
    Mr. Perry. Yes, if you could. I would like to get a 
confirmation of exactly where it came from and what time and 
who was involved, if you can provide that information.
    With that, Mr. Chair, I yield.
    Mr. Bera. Thank you.
    Unless--we each had two rounds of questions. If you have 
additional questions--I really do appreciate your taking the 
time to come up here.
    If I can perhaps just expand on something that Mr. Perry 
talked about. And I think it is to the benefit of the members 
of the committee as well. When we think about State Department 
employees, we have to think about them in two different 
distinct buckets, right, the Foreign Service officers versus 
the civilian employees.
    And maybe, Ambassador Perez, if you could expand on that--
the differences there and, how we ought to be thinking about 
that, if we can just take a quick second.
    Ms. Perez. Thank you very much. We do have two completely 
different systems. The Foreign Service, we have much more 
flexibility, because we are under--we have the Foreign Service 
Act of 1980, so we are under title 22. And that allows us to go 
ahead and be much more agile.
    The Civil Service is obviously not as agile. And sometimes 
that works against us, just because we are a foreign national 
security agency, so sometimes it is really tough when those--
when policies are promulgated that are for the entire 
government, and we are a little bit different.
    But we are trying to look our hardest right now--again, 
after 5 months, this is one of my three priority areas, is 
Civil Service reform, what do we need to do.
    We want to make sure that we keep people in the Civil 
Service because that is another issue. We do not want people to 
leave. One of the things we are focused on right now is could 
we somehow have tracks to promotion for technical specialists. 
So now you are very limited; you have to go into a supervisory 
position. A lot of people do not want to do that; they are not 
very good at it. So we need to take a look at that.
    But I am just about to start that. We focused on other 
kinds of things first, which included, the work force support, 
those kinds of things. And now this is the next call to the 
work force with their ideas.
    And we are groundsourcing--crowdsourcing this. We want to 
hear from the work force to get their best ideas on this.
    Mr. Bera. Great.
    And, Mr. Leavitt, does USAID have those same buckets as 
well?
    Mr. Leavitt. We also seek to revitalize our Civil Service 
and Foreign Service. And in terms of hiring, we seek to hire 
approximately 175 Foreign Service officers by the end of next 
year. And this year, in terms of the Civil Service, we also 
hope to hire or initiate the hiring process for approximately 
200 of those.
    But in addition to the Civil Service and the Foreign 
Service, we are very much dependent upon how we implement 
programs and the funds that we receive for that purpose. And 
the multiple mechanisms that we have, our vision is to 
streamline and rationalize them. And that is the recommendation 
for the Adaptive Personnel Project.
    Mr. Bera. Great. And I am using the chair's prerogative. 
Again, following up on Ms. Omar's question, when the First 
Daughter, Ms. Trump, talked about her desire to do women's 
empowerment in Africa and her special program which she is 
working on, I did also make the point that they will not get 
the results in terms of empowering women if they do not address 
the issue of pregnancy spacing, which really is--the academic 
literature is pretty strong on making contraception and various 
contraception methods very available, if you want to get the 
full effect of empowering women and girls.
    So Mr. Zeldin has another question.
    Mr. Zeldin. Mr. Pitkin, just following up on the end of 
that back and forth with Mr. Perry.
    Do foreign military sales payments get made without going 
through you at all?
    Mr. Pitkin. Yes. That is a program, of course, that we 
manage in cooperation with the Department of Defense. And so 
they sort of show up in the Department's books, but because it 
is pretty much a shared program with DOD, in terms of how those 
sales are recorded between the State and Defense books, that is 
something we would probably have to followup on to reflect 
that.
    I think State generally is managing the programmatic and 
the assistance side of it. Much of the actual execution of the 
sales, I think, is sort of a shared DOD mission. So I think it 
is probably better that we followup to give you a sense of how 
that accounting works.
    Mr. Zeldin. So you have been in your current position for a 
long time, right?
    Mr. Pitkin. I have been with the bureau about ten years, 
and I have been the director for about four.
    Mr. Zeldin. OK. Have you had any foreign military sales 
payments go out during that time that did not come through your 
office at all?
    Mr. Pitkin. I would say they generally do not come through 
my office, because they do not flow through the Diplomatic 
Engagement part of our budget. Again, it is a shared program 
with DOD, so it is not something that my office actively tracks 
as a program.
    Mr. Zeldin. So there have been other times as well where 
foreign military sales payments were made that did not come 
through your office?
    Mr. Pitkin. Again, because they do not come through my 
office in that sense, it is not so much a before or after. It 
is just the foreign military sales and FMF programs are really 
executed as an assistance program. So I would have to partially 
defer to my colleagues in the Office of Foreign Assistance 
Resources and also the Bureau of Political/Military Affairs, 
which really does work more closely with DOD on those programs. 
And I think they could give you a better sense of the actual 
accounting and how much of that shows up on the DOD side of the 
ledger versus the State side of the ledger.
    Mr. Zeldin. Who is the best person for me to talk to at the 
State Department to get an answer on that?
    Mr. Pitkin. I think it would be probably a followup, but I 
would say it is a combination of Political/Military Affairs and 
the offices of the Foreign Assistance Resources.
    Mr. Zeldin. Thank you.
    Mr. Bera. Thank you.
    I will recognize the gentlelady from Minnesota.
    Ms. Omar. Two quick followups.
    The incentive program that you talked about earlier, is 
that a new initiative?
    Ms. Perez. Congresswoman, what is new about it is that we 
have expanded it outside of the Afghanistan-Iraq-Pakistan, the 
war zones, to make sure that we have incentives in other places 
that are really tough for families to be in right now. So----
    Ms. Omar. But the incentive has----
    Ms. Perez. We call them special recognition packages. We 
have had them in a variety of posts. What we are trying to do 
is have a more standard type of incentive package available.
    Ms. Omar. Yes. Would you say it has been in effect like a 
decade, two decades? How long has this----
    Ms. Perez. Oh, in places like Somalia?
    Ms. Omar. No, no, not like Somalia. For the places you 
currently have.
    Ms. Perez. Absolutely. We have probably had this--I am 
trying to think--I would guess since 2005, 2006, more or less. 
Doug may know. So more than 10 years.
    Ms. Omar. And many places that people would not go to often 
go to because of these incentive programs, yes?
    Ms. Perez. Yes, it gives them--yes, it does.
    Ms. Omar. The places that--yes.
    Ms. Perez. Well, because they are leaving their families 
behind, to help support the families, those kinds of things. So 
that money is there to help support families when they are 
separated.
    Ms. Omar. Right. And for the kind of vacancies that exist 
now, have those vacancies existed for a year, 2, 3, 5? What is 
the longest vacancy that you know of right now that needs to be 
filled?
    Ms. Perez. I cannot answer that, because we have 25,000 
positions worldwide, and I do not know what that would be. And 
it really--so----
    Ms. Omar. Are there more vacancies now than, let's say, 3 
years ago or less vacancies now than 3 years ago?
    Ms. Perez. I would say it is probably pretty standard. That 
is what the GAO study shows although, as I said, at the time 
the GAO study was released, Secretary Pompeo had not come into 
office. And so, if we were a little bit short on entry-level 
officers, it was because we had the hiring freeze. And, of 
course, after that, we are now well above, recouping whatever 
we would have lost in 2017.
    So, using data from then, I do not know. That report did 
show, though--it is fairly historic. I talked a little bit 
earlier about the fact that because we are in turn all the 
time, the movement, the training, all these things, means that 
you are between posts: You are not in your old post; you are 
not in your new--sometimes it can take up a year to do that.
    But what my office does is works with the posts and with 
the bureaus to make sure we shorten whatever the gaps there are 
to the smallest possible and to use the other kinds of hiring 
authorities and the other kinds of personnel that we have in 
the Department to help us staff those gaps.
    Ms. Omar. Uh-huh. And in regard to the collection of the 
data for religious minorities or people with LGBTQ or 
disabilities, do you think it is helpful for us to collect that 
data, to mandate it?
    Ms. Perez.  I do not know, because I am not one of those 
minorities, and I do not know how I would feel. That is my only 
concern. Would I feel that that is good or bad----
    Ms. Omar. Do you think the knowledge of it creates 
discrimination?
    Ms. Perez. I do not know how people would feel.
    I can tell you sitting here as a women, I have no problem 
letting everybody know that I am a woman.
    Ms. Omar. It is kind of hard to hide that.
    Ms. Perez. Well, sometimes people have moved on now to 
where they are trying to do gender-closed kinds of, evaluations 
and things. If I say--we do it on a volunteer basis, so the 
question is----
    Ms. Omar. So there are boxes you check, right, for male, 
female?
    Ms. Perez. Absolutely. And for diversity as well. The 
question is, do people check those boxes or not? We do not 
require it.
    Ms. Omar. Any of the boxes?
    Ms. Perez. Yes. So the question is, do you make people--do 
you force people to do that or not? And I am sorry, personally, 
I do not--this is not a Department position. Personally, I just 
do not know. I do not know how you feel about forcing somebody 
to do an identification that maybe they do not want to do.
    You talk about LGBTQ. We have people that are binary. We 
have people that are in very different situations. So how do we 
make sure that people feel protected, but they want--I do not 
have the answer for you, Congresswoman--I am sorry--on a 
personal level.
    Ms. Omar. That is wonderful. And we can try to work 
together to find the answers.
    I am also interested in knowing if the exit surveys would 
be helpful for us to figure out a way to get that information 
so that it is used to inform improvements for the Department.
    Ms. Perez. Exit surveys will definitely help us, as will 
the stay surveys. So the more information we have about why 
people--well, more people--why people join, why people stay, 
and why they leave is always absolutely useful.
    Again, I am trying to engage with the work force as much as 
I can. And I do not--we put so much effort into our work force, 
and they put so much into us, that, we would like to make--
continue that relationship. So, obviously, the more data-driven 
we are, the more information we have, is better for everyone.
    Ms. Omar. Thank you.
    Mr. Leavitt. May I add on to the question with regards to 
Foreign Service assignments?
    Overseas, for USAID, we pulled together an incredibly 
talented group of Foreign Service officers, irrespective of 
rank and position in the agency or location geographically, and 
we have significantly reformed the way that we do assignments 
overseas and how we imply existing incentives.
    And as a result of that and the IT tools that we brought to 
bear in doing so, we have been able to make sure that we are 
getting staff to fill our most critical positions overseas.
    And we have found that incredibly helpful for us to 
minimize vacancies overseas, particularly for critical 
positions.
    With regards to how we motivate staff to stay in the 
agency, we find the Federal Employment Viewpoint Survey to be 
incredibly powerful for us, and that is why we mandate every 
major operating unit to have an action plan to followup on the 
results that they get. And perhaps it is tied to that--we have 
seen that, over the past 4 years, each of the past 4 years, 
fewer people say that they plan to leave over the next year.
    Ms. Omar. Maybe there is something to be learned about the 
way you operate. Thank you.
    Mr. Leavitt. Thank you.
    Mr. Bera. Well, I want to thank the witnesses and the 
members for being here today.
    And with that, the committee is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
